<html>
<title> - [H.A.S.C. No. 111-179]U.S. CYBER COMMAND: ORGANIZING FOR CYBERSPACE OPERATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-179]

        U.S. CYBER COMMAND: ORGANIZING FOR CYBERSPACE OPERATIONS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 23, 2010




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                      U.S. GOVERNMENT PRINTING OFFICE
  62-397                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98ffe8f7d8fbedebecf0fdf4e8b6fbf7f5b6">[email&#160;protected]</a>  







                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             DUNCAN HUNTER, California
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
NIKI TSONGAS, Massachusetts          MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
LARRY KISSELL, North Carolina        CHARLES K. DJOU, Hawaii
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
JOHN GARAMENDI, California
MARK S. CRITZ, Pennsylvania
LEONARD L. BOSWELL, Iowa
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
                     Paul Arcangeli, Staff Director
                 Kevin Gates, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                      Jeff Cullen, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, September 23, 2010, U.S. Cyber Command: Organizing for 
  Cyberspace Operations..........................................     1

Appendix:

Thursday, September 23, 2010.....................................    25
                              ----------                              

                      THURSDAY, SEPTEMBER 23, 2010
        U.S. CYBER COMMAND: ORGANIZING FOR CYBERSPACE OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Alexander, Gen. Keith B., USA, Commander, U.S. Cyber Command.....     3

                                APPENDIX

Prepared Statements:

    Alexander, Gen. Keith B......................................    33
    McKeon, Hon. Howard P. ``Buck''..............................    31
    Skelton, Hon. Ike............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Miller...................................................    49
    Mr. Skelton..................................................    47
    Mr. Turner...................................................    50

 
        U.S. CYBER COMMAND: ORGANIZING FOR CYBERSPACE OPERATIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Thursday, September 23, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

     The Chairman. Good morning. We welcome you to our hearing 
today, a hearing on U.S. Cyber Command, organizing for 
cyberspace operations.
    We will hear for the first time in this committee since 
Cyber Command was established from General Keith Alexander, the 
first commander of U.S. Cyber Command. He also continues to 
serve in his role as the director of National Security Agency 
[NSA].
    General Alexander has had a long record of service to our 
Nation and is a genuinely nice person, to boot. I think perhaps 
the most important thing for the American people to learn from 
this hearing is that they have exactly the right person in 
charge of this new command. General Alexander is simply the 
best, though I will note that there are some other generals 
from his class at West Point who also haven't done too badly.
    General Alexander, we certainly welcome you and thank you 
for your testimony today.
    U.S. Cyber Command, or CYBERCOM as it has been called, has 
been tasked with conducting the full range of activities needed 
for the Department of Defense [DOD] to operate effectively in 
cyberspace. Of one thing I am confident: Cyberspace will be a 
big part of future warfare.
    That means we can't afford to get this wrong. The 
establishment of CYBERCOM is a critical milestone for our 
Nation's defense. Cyberspace is an environment where 
distinctions and divisions between public and private, 
government and commercial, military and non-military are 
blurred. And while there are limits to what we can talk about 
in this open forum, the importance in this topic requires that 
we engage in this discussion in a very direct way and include 
the public.
    The threats facing the Nation in cyberspace are daunting 
and have been underappreciated until recently. Just within the 
DOD, there are some--more than 15,000 different computer 
networks, including 7 million computing devices on 4,000 
military installations around the world.
    These information systems face thousands of attacks a day 
from criminals, terrorist organizations, and more recently from 
more than 100 foreign intelligence organizations. DOD recently 
announced a new cyber strategy to deal with that burgeoning 
threat.
    To understand how well prepared the Department of Defense 
is to handle the magnitude of the threat, we need to ask some 
fundamental questions. Where are we today with CYBERCOM? Where 
do we want to take it in the future? And do we have what we 
need to get there?
    An additional challenge for this committee is determining 
how CYBERCOM fits into the broader national security effort. 
DOD has traditionally led the way in protecting information 
systems, so it is natural for CYBERCOM to play a role beyond 
just protecting military networks. What that role should be, 
however, needs very careful analysis.
    We know that as a Nation we must do more to improve 
security in cyberspace and manage risk without choking off 
creativity or innovation.
    And, General, we look forward to hearing your testimony 
today on how you intend to address these very, very important 
issues.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 29.]
    The Chairman. Now let me turn to my friend, my colleague, 
the gentleman from California, Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. I want to thank you 
for holding today's hearing on Cyber Command and, General 
Alexander, for joining us today. And I would like to align 
myself with your remarks about how fortunate we are to have 
General Alexander as the first commander of Cyber Command and 
to have you in this place at this time. We are very fortunate. 
Thank you.
    Cyber is an operational space that extends well beyond 
Internet searches and e-mail messages into a world of 
networking, interconnected systems, and pathways that can reach 
into individual components of critical weapons systems. The 
potential for harm from malicious activity reaches beyond the 
traditional military sphere of influence, as financial systems, 
critical domestic infrastructure--such as power and water 
treatment plants--and personal information all can be touched 
and disrupted through cyberspace.
    With this in mind, I look with great anticipation to Cyber 
Command becoming fully operational next month. The Department 
of Defense in many ways has been at the leading edge of 
defending against malicious cyber activity and in understanding 
the problems and opportunities that cyberspace brings to our 
Nation. And I believe we have in General Keith Alexander the 
most appropriate person to lead this newly formed command under 
U.S. Strategic Command.
    U.S. Cyber Command will be the touch-point for all things 
cyber within the department and will therefore carry a heavy 
burden. The services have built an infrastructure physical 
capability, as well as policies and processes, to handle the 
extensive activity that must be conducted in the cyber realm. 
Now General Alexander will have to ensure those efforts are 
brought under one vision and one mission, and it is nice to see 
that support group sitting right there behind you, all the 
services, everybody working together, because this is very, 
very important.
    Now General Alexander will have to ensure those efforts are 
brought under one vision and one mission, with the goal of 
maintaining our military's ability to conduct its operations in 
cyberspace. Let there be no doubt: This space is contested and 
presents a persistent vulnerability for our military, civilian, 
and commercial infrastructures, especially as we increase our 
dependence on it.
    As then-DNI [Director of National Intelligence] Dennis 
Blair commented on in testimony to the Senate Select Committee 
on Intelligence on February 2nd, we cannot be certain that our 
cyberspace infrastructure will remain available and reliable 
during a time of crisis.
    In his recent Foreign Affairs opinion piece, Deputy Defense 
Secretary William Lynn also touched on the significant threat 
that exists in cyberspace. The department is under constant 
attack, and attacks will only increase in a crisis situation. 
Accordingly, the department must ensure the appropriate 
investments in technology infrastructure and people are being 
made and the appropriate authorities, processes, policies and 
organizations are in place to allow our Nation's military to 
meet today's challenges.
    The establishment of Cyber Command meets an important step 
in strengthening the department's cyber capabilities. As 
confirmed in the 2010 Quadrennial Defense Review, the Pentagon 
needs both a centralized command for cyber operations and the 
development of a comprehensive approach to cyber operations.
    Despite this progress, many questions remain as to how 
Cyber Command will meet such a broad mandate. Your testimony 
today therefore will help this committee understand Cyber 
Command's functions and how the department is mitigating its 
vulnerabilities in cyberspace.
    Thank you for joining us. I look forward to your testimony.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 31.]
    The Chairman. I thank the gentleman from California.
    General Alexander, we recognize you for your statement. 
However, would you be kind enough to introduce the folks behind 
you, who as I understand head up the commands of each of the 
services? Would you do that first, please?

  STATEMENT OF GEN. KEITH B. ALEXANDER, USA, COMMANDER, U.S. 
                         CYBER COMMAND

    General Alexander. Chairman Skelton, Ranking Member McKeon, 
absolutely.
    Let me introduce the folks that we have. First, Vice 
Admiral Barry McCullough, a leader of 10th Fleet, Fleet Cyber 
Command. It pains me to say this as an Army guy, but I will 
tell you that they are out front. He has done a superb job 
leading his unit, working with some of the COCOMs [Combatant 
Commands] in setting up the tactics, the techniques, 
procedures, doctrine of how we will fight. We, working as a 
team, have put together a joint task force looking at this, how 
we would, Cyber Command, support the combatant commands. He has 
led a lot of that effort, done absolutely superb. They are 
doing great.
    We have Lieutenant General George Flynn, U.S. Marine Corps, 
leading MARFORCYBER, perhaps one of the best in leading some of 
the stuff and issues that we have in situation awareness and in 
doctrine. And since he has that in the Marine Corps, he can do 
both for us. Absolutely superb to have him.
    Coming on board, Major General Rhett Hernandez on 1 October 
will take over U.S. Army Cyber. He is right now at the deputy 
ops, G3/5. We have had a number of conversations on the way 
forward. He understands the mission. He and Army Cyber are 
jumping forward. They have put together a unit, and I think 
that is making great, great headway.
    Last but not least, Major General Dick Webber, Air Force 
Cyber, 24th Air Force. A couple of things that they have done. 
One, he has set up his command down at San Antonio, Texas, done 
a superb job, recently gone through an I.G. [Inspector General] 
inspection to see if they are ready for their full operational 
capability, did a great job on that, passed that by Air Force 
Space. They have great folks. I was down there a few weeks ago. 
They are doing a great job, absolutely superb.
    I would tell you, Chairman, one of the great honors and 
privileges for being in this job is to have the team behind us 
working this together and working with NSA and the intel 
community, absolutely superb.
    One of the--one of the things that I wanted to do was, 
first, thank you and the committee for the support in helping 
us stand up U.S. Cyber Command and the component commands. Like 
you, we see this as something critical to the Defense 
Department to help us direct the operations in defense of our 
networks.
    And as you stated, this is a complex issue. We face severe 
threats. Those threats to our national security, in my opinion, 
are real. It is occupying much of our time and attention. At 
the unclassified level, we have stated that we see probes and 
scans to our networks that come up on the order of 200,000, 
250,000 times an hour, and we have got to be prepared to meet 
those.
    Our services in combatant commands depend on a command-and-
control system, a computer system that has the integrity and 
reliability to operate in combat. We have the mission to help 
ensure that that happens.
    As you mentioned, we are approaching our full operational 
capability. I will tell you that we have met many of the tasks 
that we set out to do. As we described last time, we have 
brought the Joint Task Force-Global Network Ops up to Fort 
Meade, repositioned the Joint Ops Center there at Fort Meade. 
It is operating today. That was part of the BRAC [Base 
Realignment and Closure] process. Now we have co-located them 
with the NSA Threat Operations Center, and that is a great step 
forward. That was done and completed in May and has been 
operating ever since.
    Some of the issues that we work with are the issues that I 
think you would expect us to do. First and foremost, how are we 
going to support the combatant commands? How are we going to 
defend this network in crisis? And those are the things that we 
are taking on first, establishing the tactics, the techniques 
and procedures for doing just that, and we are breaking this 
out, looking at the most significant threats first and ensuring 
that if something were to happen, we can take those threats on.
    I did provide a written statement for the record. As you 
know, Chairman, I am not that good at reading. I am an Army 
officer, so I would ask that that be submitted.
    The Chairman. Without objection, that will be part of the 
record. Thank you.
    General Alexander. I would--I would tell you that this is a 
work in progress, what we are doing at Cyber Command. This is 
going to take time for us to generate the force. If I were--if 
you were to ask me what is the biggest challenge that we 
currently face, it is generating the people that we need to do 
this mission.
    We have about--we have our command stood up, our staff 
stood up, but the force is what we now have to rely on. The 
services are expanding that mission, going to 1,000 per year 
over the next few years, and I think we are headed in the right 
time. That is the biggest focus that we have, how we get that 
force generated, and the topic of discussion throughout the 
department. And I will tell you, rest assured, we know that 
that is important to get this done.
    I see these remarks and this opportunity to start the 
dialogue, an open, transparent dialogue on what we are trying 
to do in Cyber Command to defend our Defense Department's 
networks against attack and to accomplish other missions that 
we would have as delegated to us to defend other networks 
throughout the government.
    And, Mr. Chairman, I would pass it back to you.
    [The prepared statement of General Alexander can be found 
in the Appendix on page 33.]
    The Chairman. I certainly thank the gentleman.
    Mr. McKeon, gentleman from California.
    Mr. McKeon. Thank you, Mr. Chairman.
    General, how do you see the Cyber Command improving the 
department's ability to provide a trained cyber force to ensure 
that service research and development investments, and 
procurement programs will provide a united, comprehensive 
approach to DOD cyber operations?
    General Alexander. Congressman, I think the key thing on 
this is to do it as a joint organization, so the standards are 
the same throughout--throughout the command. So bringing in--
whether it is the tools we create or the students we put 
through there, doing it as a joint force with one standard is 
the key thing, and we have taken that approach, so our cyber 
training is at one school.
    And if we have to go to multiple schools, it will be done 
with one standard. And I think that is what we need to do, so 
that you know, our combatant commanders know, the folks that 
are forward know that whether they get a soldier, Marine, 
airman or sailor, that that person is trained to a standard and 
can accomplish the mission that is expected of them.
    Mr. McKeon. How does Cyber Command provide U.S. Strategic 
Command with a wider menu of strategic options? How do you 
respond to concerns that the alignment of defensive and 
offensive capabilities represents too much cyber capability 
resting in one command or within the Department of Defense? And 
why were these two functions placed under your command? What 
operational efficiencies were achieved by this alignment?
    General Alexander. That is a great question--question, 
Congressman. Let me--let me just drop back and go to the 2008. 
As you may recall, there was a significant problem on our 
networks that we discovered. At that time, we had the defense 
and the operations in one command, under the Joint Task Force-
Global Network Operations. And that task force got one level of 
intelligence and could see one part of the network.
    Operating on the other side was the Joint Functional 
Component Command-Net Warfare, trained at a different level 
with different intel insights at a different classification 
level, same network, two organizations. And if you are 
operating at the National Training Center, you wouldn't have 
the defensive team out there defending and then take them off 
the field and run out with an offensive team. It is the same 
team.
    And so the good thing that we have done here is we have 
brought those two together, merged those, and I think that is 
key to the success here. We need that to operate as one team.
    The offense and defense cannot be different here, because 
these operations will occur in real time. And I think we have 
to be prepared to do that. It is not time to say, oh, this is 
your mission and you are on your own.
    It is also experience that we have seen in some of our red 
team and blue teams of what is happening in our networks. And I 
think that is a--a huge and a positive step and goes 
significantly towards providing better support to the COCOMs.
    Mr. McKeon. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Historically speaking, we, you, are ahead of 
those examples within the military, particularly the Army, at 
the creation of a new system. The beginning of the Army Air 
Corps was not fully appreciated or understood in its initial 
foray into the military.
    I think the same can be true in transferring the cavalry 
into the tank corps. That was not fully appreciated. But I 
think we do appreciate this new challenge. And we are up to the 
task, it appears.
    I would like to ask you, what do you need from Congress? It 
is our duty, as you know, under the Constitution to provide and 
raise and maintain the military. What do you need from us at 
the inception of your command, which will be a long and 
historic command, long after everyone in this room passes from 
sight? So what do you need to get you off to a good start, 
unlike the cavalry going into the tanks and that flying machine 
of yesteryear?
    General Alexander. Chairman, two things go through my mind 
when you say that. One, I hope that is a long time. And, two, 
somebody offered me some great courses. Now I know what they 
were talking about.
    With respect to--to cyberspace, I think there are two 
things that we need your continued support on. First, in terms 
of resources, we need the continued support of Congress and the 
resources that the department is putting forward for the 
component commands that we have here. It is going to have to 
grow. Each of them are looking at this and addressing that, and 
we will need your continued support to make that happen.
    And the second is authorities. Right now, the White House 
is leading a discussion on what are the authorities needed, and 
how do we do this, and what will the team--the Defense 
Department and Cyber Command is a member of that team--how will 
that team operate to--to defend our country?
    What they will look at across that is, what are the 
authorities? What do we have legally? And then, given that, 
what do we have to come back to Congress and reshape or mold 
for authorities to operate in cyberspace? We would solicit your 
support on that, when that is brought forward from the White 
House.
    The Chairman. Would you please describe for all of us the 
threat environment as you see it? And I know that is a complex 
answer, but would you do your best to describe the threat 
environment that you face on a daily basis?
    General Alexander. In an unclassified forum, let me give 
you the threat in these three broad--broad areas. Going back 
over time, since the--the inception of the Internet, as it 
were, probably the key thing that we have seen is hacker 
activity and exploitation. That is where someone comes in and 
takes information from your computer, steals your credit card 
number, takes money out of your account. We have seen that go 
on, and that endures. And it is perhaps the most significant 
form of the threat that we see today, not just stealing our 
intellectual property, but also our secrets in other parts of 
our networks.
    The concern, though, is if you go to 2007, Estonia was the 
first time that a nation-state was attacked in cyberspace. And 
so we see a shift from exploitation to actually using the 
Internet as a weapons platform to get another country to bend 
to the will of another country. While it is hard to attribute 
that to a nation-state, you can see it did happen when two 
nations were quarreling over political issues.
    That followed, again, by more attacks in 2008 into Georgia. 
Those were disruptive. And let me describe disruptive. I have 
four daughters and 12 grandchildren, so you are driving the 
vehicle with all these kids in the back, and you are trying to 
talk to someone in the front seat, and they are all talking 
real loud. It happens occasionally. That is a disruption. When 
they finally quiet down, you can talk again.
    A disruptive attack prevents you from doing your business 
for the time being, but is normally something that you can 
recover from and then go on and do your business.
    What concerns me the most is destructive attacks that are 
coming. And we are concerned that those are the next things 
that we will see. And those are things that can destroy 
equipment, so it is not something that you recover from by just 
stopping the traffic. It is something that breaks a computer or 
another automated device and, once broken, has to be replaced. 
That could cause tremendous damage.
    In the department's concern, if that were to happen in a--
in a war zone, that means our command-and-control system and 
other things suffer. We have got to be prepared for that, both 
from a defensive perspective and then to ensure that the enemy 
can't do it to us again, so full operational capability.
    The Chairman. General, you have the four service commanders 
seated behind you, and thank you for introducing them a moment 
ago. Would you tell us how they are supposed to interact with 
your command?
    General Alexander. The way--the way we have worked this to 
date is to set this up in the following manner, our first--what 
I will call our first version 1.0. When we look at what is 
going on globally, if there is a global cyber action against 
our department, the question is, how are we going to organize 
our forces? And what we don't want to do is say, well, the Navy 
will do Navy, and the Army will do Army, and the Air Force will 
do Air Force.
    What we have come up with is we need to set up a joint task 
force or, in this case, perhaps a joint cyber ops task force, 
and that cyber ops task force would work with Cyber Command, 
but go forward to work with the combatant command to present 
forces from all the services to meet in operational mission. 
And then let us train as a first step how each of those forces 
would do that, what we would do for PACOM [Pacific Command], 
CENTCOM [Central Command], EUCOM [European Command], SOUTHCOM 
[Southern Command], and NORTHCOM [Northern Command], if 
required.
    So what we are trying to do is organize that as a joint 
force so that in each case you would have folks from each of 
the services supporting that. Rather than having three services 
providing that to a combatant command, have it one, a cyber 
task force.
    You--many make an analogy similar to the way SOF forces are 
presented, special ops forces are presented. I think that is a 
close analogy and probably something that we will get to. So 
that is how we are organizing it. And now what we are doing is 
working with the combatant commands on specific plans to see, 
do we have the force structure to meet what you would require 
in that plan? And if not, what force structure do we need? And 
use those force structure requirements to drive the growth that 
we would have in each of our components.
    So that is a long-winded answer to get to it, but it is 
organizing in a joint force to accomplish those missions. I 
think that is the best thing for the department and our Nation.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    And thank you so much for--for what you do to keep our 
country safe and strong.
    I mean, this seems to be like you have got to get very 
skilled people to work for you. I mean, how do you recruit them 
or how do you train them before you get them to work for you? 
And do you feel that you have enough staff to do what you have 
to do?
    And my next question would be, I mean, if they were to 
disrupt and conduct an attack where you lose all kinds of 
communication, is there any way for a backup system?
    General Alexander. Let me answer this, first, with the 
recruit, train, and I will just add in retain. I think this is 
one of the key issues that we are looking at right now: What is 
the--if you will--the calculus for retaining this high-end 
talent?
    Well, when we send them through school, they go for two 
years. It would be my preference that they don't cycle through 
their jobs as we would normally do in the military, but keep 
them in place longer.
    My initial assessment is all the service chiefs and 
combatant commands see it similarly. We are going to need to 
keep people in place longer and to retain them. We are getting 
a lot of good folks. You know, I will tell you, it is a 
privilege and honor to see the great folks that we are getting 
in there. The key is, how do we retain them? Because everybody 
wants good people.
    And so I think the bonus systems and other things are ones 
that we have to look at. That is yet to be done to ensure that 
we retain that right force.
    Enough staff, I think we have enough staff. I think the 
staffs are, at least for right now, the right size. I think 
that first priority, grow the cyber force and cyber operators, 
make sure we have enough to meet those emerging combatant 
commander requirements. So I would focus on getting the forces 
that we need, then come back and re-address the staff one more 
time later, but I think we have got enough.
    Now, hopefully my staff is not tuned into that right now, 
but I think that is true.
    And your last question was, if they conduct an attack on us 
in cyberspace, do we have a backup system? So there are things 
that we have to look at in that area, whether it is a backup 
system or other options that--that would allow us the agility 
to maintain our command and control are things that we have to 
look at.
    We are looking at those. We are coming up with, I think, 
some tremendously innovative things that I would prefer not to 
put out here right now, but I think it will provide exactly 
what you are asking for, that kind of agility for the command 
and control of our forces abroad.
    Mr. Ortiz. I know there is a lot of Members here, and I 
don't want to take too much time to allow other Members to ask 
questions. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    The--in the open source press, a major disruption drove a 
task force--a deal called Operation Buckshot Yankee. Can you 
visit with us a little bit about what that was and what impact 
it had on the way you looked at the plans that you had in place 
up until that point in time when that happened?
    General Alexander. Thank you, Congressman. Yes, Operation 
Buckshot Yankee, a foreign adversary using an air gap jumping 
tool, had gotten some malicious software on to our classified 
networks.
    Mr. Conaway. Would----
    General Alexander. The way that happens is, if you use a 
thumb drive or other removable media on an unclassified system, 
the malware would get on that removable media, ride that 
removable media over to the other system. And so think of it as 
a man in a loop wire, and so a person could be taking 
information they needed from an unclassified system, putting it 
onto a classified system, and so that software would ride that 
removable media and go back and forth.
    It was detected by some of our network folks within the 
advanced network ops, our information assurance division at 
NSA. When we brought that forward, it caused a couple things to 
happen.
    As I mentioned earlier, first, it became clear that we 
needed to bring together the offense and defense capabilities. 
And so Global Network Ops was put--Joint Task Force-Global 
Network Ops was put under my operational control in--within a 
month of that happening. And I think that started to change the 
way we look at this.
    And then the Secretary of Defense set in motion the next 
step, which was to set up Cyber Command as a sub-unified 
command. And I think both of those are the right things to do. 
What it does is it gets greater synergy between those who are 
defending the networks and what they see and those that are 
operating in the networks abroad and what they see and bringing 
that together for the benefit of our defense. I think that is 
exactly what the Nation would expect of us.
    Mr. Conaway. Okay. And you used the phrase air gap. That is 
the thumb drive that was----
    General Alexander. Right. So when a thumb drive goes from 
one computer, and when it is unplugged, now we call that the 
air. And then when it gets plugged in----
    Mr. Conaway. Okay. Talk to us a little bit about your--the 
dual hats you wear, Cyber Command and heading--still heading 
NSA. I suspect I know what you--the end is--but can you walk us 
through how you are going to make sure both get your undivided 
attention?
    General Alexander. Yes. Well, I--well, I guess the initial 
quip was, I will work twice as hard. But the reality is, in 
cyberspace, that is--that is where NSA operates and has 
tremendous technical expertise. It has our Nation's expertise 
for crypto-mathematicians, for access, for linguists, for 
everything that you would need to operate in cyberspace.
    And what the Secretary said is, we can't afford to 
replicate the hundreds of billions of dollars that we put into 
NSA to do another for Cyber Command and then another perhaps 
for DHS [Department of Homeland Security] and others. Let us 
leverage what we have and bring that together.
    And so by bringing these two together, we have actually 
accomplished that goal. Now, they--they have and operate under 
separate staffs and under different authorities, as you know. 
And so under the Cyber Command, the thing that has helped, I 
always had, since I have been the director of NSA, the 
additional duty as the Joint Functional Component Command-Net 
Warfare, so I had that job. What I didn't have was the staff, 
the--the horsepower and the staff that I have now, so actually 
that helps us.
    And I think you can see the momentum picking up with that 
staff and the staffs of the folks behind us. When you bring 
this much talent to the problem, we are going to make progress, 
and we are. So I think that is a very good value added.
    And I will tell you another thing. We have two great 
deputies. The NSA deputy, Chris Inglis, is one of the best 
people I have ever worked with. And on the cyber side, we have 
now Lieutenant General Bob Schmidle, Rooster, absolutely the 
same type person, just extremely competent, great to work with, 
a team player. And together they are forming the right team, 
and I think our Nation will benefit from that.
    Mr. Conaway. Thank you for that. Let me follow up on--a 
little bit of what Solomon was saying. Our enemy for the most 
part is, you know, 14- to 25-year-old, you know, really bright 
folks who are off the reservation. To counter those, can you, 
in fact, attract and do the standards of personal conduct, 
background, and everything else that you have to have in order 
to allow them access to our secrets? Are there enough folks out 
there who are not tainted by, you know, previous conduct that 
you can still get into the system so we can take advantage of 
them and they can man these slots that you are forming?
    General Alexander. We are having great success to date, 
that if the economy were to pick up, that might change that 
calculus. But right now, we have great success in hiring, great 
outreach. We are getting great people.
    In fact, on the NSA side, one of our positions, we had 800 
applicants. And, you know, so when you look at that--so we are 
getting a great number of folks.
    I think the real key goes back to an earlier question. So 
once you got those great people, now you are going to say, so 
how do you keep them? And I think it is by the job we do, by 
the leadership of the folks behind us, and how they lead and 
train those and the missions that we have.
    If it is exciting, you know they will stay. And if we pay 
them right and take care of them, I think we will keep these 
folks.
    Mr. Conaway. Thank you, Mr. Chairman. Yield back.
    The Chairman. Mr. Taylor, please.
    Mr. Taylor has asked that Mr. Kissell be called upon in his 
stead.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. I thank the gentleman 
from Mississippi for yielding.
    And, General, thank you and your staff for being here 
today. It is a very important issue. And I want to follow up 
the question a little bit more to what my colleagues have 
already asked about the recruitment of personnel.
    In the recruiting of people to come in and be part of your 
staff, do they then work as civilians and not--not traditional 
military?
    General Alexander. We have a combination of both military 
and civilian.
    Mr. Kissell. Okay. And--and--and taking that a little bit 
further, how do we test our system in terms of bringing people 
in and--and having self-inflicted attacks? How do we figure 
out, you know, where we think we are safe and by bringing 
people in to test it and--and having somebody who is capable to 
come in and test that type system?
    General Alexander. That is the great part, Congressman, 
about bringing together that offense with defense. The red 
teams, our red teams, our advanced network ops, are constantly 
doing that, hunting, checking our networks. It is something 
that we are going to have to grow.
    I think one of the key things that we have put on the table 
is what I will call hunting on our networks for adversaries 
that are there. You are always going to have to do it. And that 
creates it from a more static capability to a more dynamic, 
because you are actually looking for something that is going 
on.
    And, for example, if you had a bank and we set up a 
perimeter defense and then left every night, and every morning 
once a week we would see they got in there, so we keep changing 
the defense, that would be static. But now if we had a roving 
guard there waiting for people, trying to stop them, that would 
be more like the active defense that we are looking at in the 
future. I think we have got to do both.
    Mr. Kissell. And we know that the civilian side of cyber 
defense is--is--is certainly not what we have in the military. 
How does that affect your efforts to compensate for, to--to get 
around whatever the situation may be, the inadequacies in the 
civilian side? What does that mean for you guys?
    General Alexander. Well, we depend on many of those 
civilian networks and infrastructure for department operations, 
especially in crisis. And so our partnership with homeland 
security and others to help work that is a key issue that we 
are working with the Department of Homeland Security.
    I think that--that team and partnership is growing. We need 
to keep pushing that forward, because some of those networks, 
those capabilities have to be there in crisis for our country.
    Mr. Kissell. What about outside of government? You say 
industry--the greater civilian world. Does their--their lack of 
defenses in so many places, does that hamper what you are 
doing? Or is this something you work around?
    General Alexander. Well, I think there are two--two parts 
to that. One is, I think industry also recognized the issues 
here and are trying to step forward, but we have to partner 
with industry, and I think it has to be a partnership. I think 
DHS has to be in that construct of that partnership.
    The reason, much of the infrastructure that we have is 
owned by industry, that we operate on is owned by industry, and 
they have tremendous technical talent. We have to bring those 
together with what the government knows from a threat 
perspective and the tactics, techniques and procedures that we 
develop for operations.
    And we have to bring both of those together and ensure that 
those are right. That is part of the discussion that is ongoing 
right now that will eventually result in, ``Here is how the 
team will operate,'' that would result in the request for 
authorities that I think the White House will--is working now 
to bring forward.
    Mr. Kissell. Thank you, sir.
    And thank you once again to the gentleman from Mississippi.
    And thank you, Mr. Chairman.
    The Chairman. Mr. Coffman, please.
    Mr. Coffman. Thank you, Mr. Chairman.
    I am--I am wondering, General, if you could review for us 
just for a minute--you mentioned 2007, the--the first cyber 
attack on Estonia. Where did that come from? What were the 
ramifications of that, that attack, in terms of the disruption?
    General Alexander. Absolutely. It is in open press, a lot 
of this, so I will give you the gist of it. And I know the--the 
reporters will get this more accurate.
    But in May of 2007, there was a Russian statue that the 
Estonians were going to take down, a big political discussion 
between Estonia and Russia. Hacktivists from Russia appeared to 
attack it, and from around the world different computers were 
brought into play to send spam e-mail, a distributed denial-of-
service attack, on much of the government of Estonia's 
infrastructure, making it almost impossible for their banks to 
do business internally and, for sure, externally to Estonia 
caused tremendous damage and has resulted in them building a 
cyber capability themselves.
    So a huge problem, and it was all around that political 
issue. Attribution, saying specifically was this caused by one 
nation-state or another is difficult and not something that we 
have.
    Mr. Coffman. Okay, thank you, General. The--how would you--
in terms of the threat assessment--and I think you have 
described what the--what the tactical measures are, in terms of 
threatening our infrastructure. But could you, in terms of 
evaluating the peer competitors of the United States, in terms 
of their threats in cyberspace, how would you evaluate them? 
Let us say China, Russia. Who are the peer competitors of the 
United States that threaten us--that potentially would threaten 
us?
    General Alexander. That is a great question, Congressman, 
because in cyberspace, it is not so much necessarily the--the 
size of the country as it is the idea of the person who is 
creating the software.
    I think there are a number of countries out there that are 
near peers to us in cyberspace, and hence the concern. This is 
an area that--that others can have an asymmetric capability and 
advantage.
    And there are two parts to that question, if I could just 
add an extension to it, is, first, we think about nation-
states, but just given that part of the discussion, the non-
nation-state actors are also a concern. And then if you look in 
this, in this area, when people create tools, cyber tools, the 
unintentional distribution of some of those tools can cause the 
most problems. We have got to be prepared for all of that, for 
these nations that are out there.
    And we are not the only smart people in this area. There 
are others that are just as capable of us and in some areas 
perhaps more capable. And so we have to ensure across that 
board that we cover that spectrum. China, Russia, and you can 
just go around the world and pick--most of the modern nations 
have capabilities that I think many could argue are near to us 
and in some areas may exceed our capabilities.
    Mr. Coffman. General, who--who would exceed our 
capabilities?
    General Alexander. Well, it depends on the area. So if you 
were to--if you were to build a--a--a whole suite of tools--and 
if you go back to the 1950s, you know, it was a discussion 
about the different capabilities of us versus Russia, Russia 
had power capabilities over us in some areas, actual electrical 
power and the development of power engines and some 
capabilities, and we had it in perhaps the computer and some 
other areas.
    We are going to see in the tools, the development of tools, 
one country may be the best at developing worms or viruses. 
Another may be the best at developing tools for exploitation 
that are stealthy. We don't see them. Another country may be 
the best at developing tools that can attack certain specific 
systems, because they see that as in their national interest.
    And so our concern, my concern in answering this--and I 
think what we as a Nation have to look at, is you have to cover 
that whole spectrum to protect our country. And so what we have 
to do is--we are not going to be--we have to recognize that, 
first, there are other smart people out there, and that is why 
we have got to take this so serious. It is an asymmetric 
advantage that some could have over us, and we have got to put 
that defense up.
    Mr. Coffman. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    Mr. Reyes, please.
    Mr. Reyes. Thank you, Mr. Chairman.
    General, good to see you, and thank you for the work that 
you are doing in this very critical area. I think it is--it is 
great news that we are getting the kind of talent that we know 
we are able to attract, and certainly getting 800 applicants 
for the position that you referenced is good news.
    But I have got--the--the question I have is, you are 
dependent on all the services to provide you the personnel with 
these skills. And I am just curious, do you--do you think that 
all the services are--I guess, first of all, at the same level, 
in terms of attracting and providing for opportunities as a 
career in cyber, for--for their respective personnel? Do you 
think they are all at the same level?
    And the second thing is, are there any concerns that you 
have--since you are dependent on them--that you have--you have 
expressed to the other services about this issue? It seems to 
me you are--you are dependent on their ability to give you that 
kind of support.
    General Alexander. I am optimistic that we will get the 
force that we need. We are pushing on the services to go faster 
to bring those forces in. And the issues that we have talked 
about--how do you not only recruit some of these, but how do 
you retain them? And in what--in what mix do you bring them in? 
Are they all military? Are they military-civilian? How do we 
add those mixes in? And how do they complement other actors 
that we have within NSA, the I.C. [Intelligence Community], and 
other elements of DHS, as an example? How do we bring all that 
together, are parts of the discussion.
    If I were to tell you my greatest concern, it is moving 
fast enough to provide a capability to defend our networks in 
time if a crisis were to occur. We see that as our number-one 
mission: Be ready.
    And right now, we--we have to build that force to get 
there. That is going to take some time. We have some force 
structure. The services have leaned forward on that. They are 
presenting some capabilities. We are moving down that road.
    It doesn't--you don't instantly create a cyber actor or a 
cyber operator. It takes time. Some of the training programs go 
18 months. And so even if we had 100 or 1,000 more today, we 
would want to send those through training.
    Some of the discussions the service chiefs have had with me 
is, can we do on-the-job training for some of these folks that 
are pretty smart, put them in this area, and give us an 
increased capacity earlier, and then send them to a training 
program, a formal training program as we bring in others? We 
have got to look at all of that.
    Mr. Reyes. In the context of the threats that you just 
mentioned, we are focused mostly on attacks from other 
countries on our--through the--via the Internet. I am 
concerned, given the case of Private Manning and--and the 
WikiLeaks case, as well, about attacks within, you know--in 
other words, people that have access to our systems that 
deliberately either steal information from our secure systems 
or, in some cases, may be enemy agents that have access to 
them.
    What--are you concerned about that? What are--what are we 
doing about that? And how can we--what can we do to minimize 
those kinds of concerns?
    General Alexander. Congressman, I am--I am concerned about 
it. It is an issue. I do think we have some ideas on how to 
address that, some of which we have already implemented, some 
that will need to be implemented as we transition to a new 
architecture. I think both of those will help address that 
problem.
    There is always going to be concern about an inside actor 
and, I would just add to it, supply-chain issues. Both of those 
are going to be key things that we are going to have to look 
at. Knowing that those are issues will help us in the 
development and planning of our future systems, and I think we 
have got to address those with our eyes wide open.
    It is always going to be a problem. There are things that 
we can do to mitigate it. We will never solve that 100 percent.
    Mr. Reyes. Thank you. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from Texas.
    Mr. Wilson, please.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, thank you very much for your service. I am 
very grateful that our colleague, Congressman Roscoe Bartlett 
of Maryland, for years has raised the concerns about cyber 
warfare and how this could affect the American people. And I 
appreciate your efforts to protect the American people.
    Throughout my time in Congress and as the ranking member of 
the Military Personnel Subcommittee, I have had the opportunity 
to meet and hear from many wounded veterans. Many are eager to 
return to the fight. It seems to me it would be in the best 
interests of the Department of Defense to retain these 
individuals and their knowledge and their experience.
    With that said, are there any efforts being made to retrain 
wounded warriors within the Cyber Command? If not, would that 
be a potential option?
    General Alexander. We do have within the services and 
within NSA a program to--to hire the wounded warriors, and we 
have brought some onboard that are operating either in this or 
one capacity or the other. That is a great point.
    I would just like to emphasize, we can use these soldiers, 
sailors, airmen and Marines. They have tremendous capability, 
and they present a credible operator for the rest of the folks 
to see. So it is a huge step forward. And we have brought a 
number on board.
    I think we could do more on that. We need to work with the 
services on that, and we are.
    Mr. Wilson. And I have seen it firsthand. I was visiting at 
Landstuhl, and a young lady had lost both legs. And her--within 
48 hours, her comments were, ``I want to be back with my 
buddies.'' And so people do want to serve. And so I can see 
what you are doing is giving a great opportunity for very 
talented people who want to serve our country.
    There has been concern of personal liberties and privacy 
being compromised with regard to cybersecurity. As a command, 
what will you do from a process perspective, as well as 
technological perspective, to ensure privacy and civil 
liberties are protected? Is there anything Congress can do to 
assist you in your efforts?
    General Alexander. That is a great question. Thank you, 
Congressman, because I think two parts to this. One, we have a 
responsibility to protect the civil liberties and privacy of 
the American people and of our people. That is non-negotiable. 
Constitution, that is what we are there for. We have to do 
that.
    Now, there are two issues with this. One, transparency. 
What can we do to show you, Congress as an oversight body, what 
we are doing and the American people? And, two, how do we also 
help ensure that what they understand is accurate?
    Because a lot of people bring up privacy and civil 
liberties. And then you say, well, what specifically are you 
concerned about? And they say, well, privacy and civil 
liberties.
    So is this system--are you concerned that the anti-virus 
program that McAfee runs invades your privacy or civil 
liberties? And then answer is no, no, no, but I am worried that 
you would. And so now we are--so let us explain what we are 
trying to do to protect the department's systems.
    And I think that is where Congress, the administration, the 
department can work together to ensure that the American people 
understand exactly what we are doing and how we are doing it. 
That is part of the transparency that I think needs to be put 
on the table.
    What we can't do, we can't say, ``Here is a specific threat 
that we are defend against and how we are defending against 
it,'' because the adversary within three days would be able to 
work around it. So it is those--those two things. That is a 
very important issue, I think, that we have to confront now and 
fix.
    Mr. Wilson. And for the health and safety of the American 
people, such as electrical grids, you mentioned the banking, 
commerce system of Estonia, all of this is--is so important.
    A final question. Your activities fall under Intelligence 
Title 50, Attack Title 10, and Law Enforcement Title 18. How do 
you balance these legal authorities?
    General Alexander. Well, for the--for the Title 10, they 
operate under the CYBERCOM hand. Cyber Command operates under 
Title 10 authorities to this committee, the House Armed 
Services Committee.
    NSA, we operate under Title 50, intelligence authorities 
under the House Permanent Select Committee for Intelligence, 
and we have in our staffs the legal teams to ensure that we do 
these exactly right. And so any operations that Cyber Command 
does, defensively we have the standing rules of engagement laid 
out there, and any other operations that we would do would have 
to be done under an execute order through the Secretary of 
Defense to the President.
    Mr. Wilson. And--and, again, thank you very much for your 
service and commitment to our country.
    And I yield the balance of my time.
    The Chairman. I thank the gentleman.
    Mr. Critz, please.
    Mr. Critz. Thank you, Mr. Chairman.
    And thank you, General, for being here. Fortunately, in my 
part of the world, in western Pennsylvania, we have Carnegie 
Mellon University, and they have the CyLab, and they do a lot 
in cybersecurity. And we have been talking about this quite a 
bit.
    And one of--one of the issues that seems to come up--and it 
seems like you have explained it--within the military, that we 
can be stovepiped in how we accomplish or how we do things. And 
it is good to see the different services working together, but 
I would be curious to hear how you are partnering or how you 
are working with not only private industry, but with the 
educational institutions out there that have expertise so that 
we are working cohesively, because I would assume that many of 
the threats are very similar.
    General Alexander. That is a great--a great question, 
because the universities, academic institutions, labs, industry 
are key partners in all of this, and we do have to reach out. 
And we reach out in a couple of ways.
    As you may know, from an information assurance side, both 
we, NSA, Department of Homeland Security, and the department 
run a program, an education program that helps the 
universities. Here is a set of criteria for getting an 
information assurance degree, and we work with those 
universities, over 100 now, in doing that. I think that is 
absolutely the right thing to do.
    And as we said earlier, we are not the only smart people in 
this area. In fact, many of us would argue, heck, our industry 
partners have tremendous capability, so partnerships with them 
makes a lot of sense. And setting up groups--and this is where 
Howard Schmidt, the White House coordinator, comes in and 
Homeland Security to bring these teams together. I think that 
is crucial, bringing all of the players together, industry, 
academia, and government, to solve these problems.
    Mr. Critz. Well, thank you--thank you very much. And you 
mentioned about the 250,000 attacks per hour. I think that was 
the number you used. And certainly that happens in industry, as 
well. In fact, some statistics show that patches to anti-virus 
can be re-engineered or reverse-engineered within moments, 
actually, as the patches come on board, so it is a major issue.
    You mentioned about the--the thumb drives, how they carry 
viruses around, and certainly it is an educational process.
    I have noticed, or have read about a culture shift that has 
been mentioned within the military. And I would be curious to 
hear your--your description of this culture shift and what it--
what it really means.
    General Alexander. So we--we actually hit three parts that 
came out of that Operation Buckshot Yankee: culture, conduct 
and capability. On the culture side, it was getting commanders 
to understand this is commander's business. This isn't 
something that you say, ``I am going to have one of my staff 
run.'' This is commander's business.
    Commanders are responsible for the operation of their 
command, and this operational network is important to them. So 
the big jump first part was commanders have a responsibility.
    The second part is understanding the responsibility to 
actually conduct the patches that you brought up, because if 
you don't fix the patches, as you rightly stated, an adversary 
sees a problem, within minutes of that problem being out there, 
they have a way to hit a system with that vulnerability that we 
are trying to patch.
    If you haven't done the patch, you have a vulnerability 
that somebody will probably exploit. And if you don't do those 
patches on time, you risk not only your system, but the whole 
network. So getting those right and ensuring that commanders 
know that it is their business to do that, that has been the 
greatest cultural things that we have pushed forward in the 
military. Tremendous--tremendous jumps in from where we were 
two years ago to where we are today.
    Mr. Critz. Well, thank you. And my final question is--you 
know, how can the Department of Defense be more proactive, 
rather than reactive, in the dot-mil domain mode of cyber 
defense, by incorporating the assurance, the resilience, and 
the performance?
    General Alexander. I think--I think the first step is, we 
have to look at the way we do business and the way our networks 
operate and, like industry, take that construct and see if 
there isn't a better model, a more efficient, a more defensible 
model, something that would be harder for our adversaries to 
penetrate, and that would provide equal or better command and 
control.
    It is coming in the commercial side. You can see this with 
your iPad, your iPhones, the new technology, computing on the 
edge, all these things, cloud computing. Now we need to look at 
that. Is there opportunities now for the department and the 
government to use in creating more secure networks? Industry, 
academia, and government are all looking at this. We have got 
partners at all of those helping.
    Mr. Critz. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. McKeon, please.
    Mr. McKeon. Thank you, Mr. Chairman.
    General, does Cyber Command have the mandate to support 
General Petraeus in Afghanistan by denying and disrupting Al 
Qaeda and the Taliban's use of cyberspace? Do you have the 
necessary authorities to carry out this function?
    General Alexander. We have actually deployed an 
expeditionary cyber support element to Afghanistan to support 
General Petraeus. I did not want him to beat me up for not 
doing that.
    And we have a responsibility to help them protect their 
networks, the Afghan Mission Networks. We are working as part 
of a joint team--because the services actually will implement 
that--we are ensuring that the capabilities put into that 
network are defensible in helping to set that up.
    We are not where we need to be in terms of setting all the 
things in place, but we have come a long ways. And I think we 
are making progress in that area.
    If you were to ask what is the--the real issue that--that 
we need to address, it is ensuring that the evolving Afghan 
Mission Network is defensible, up and--up and operating, 
because it is going to cover a number of countries that are in 
Afghanistan.
    Mr. McKeon. Thank you.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    General, welcome. Thank you for your great service to our 
Nation, your presence today. Again, you have had an outstanding 
career, and I look forward to supporting you in your new role 
as head of Cyber Command.
    Cybersecurity, as you know, has been both a personal and 
professional interest of mine for--for several years now. Since 
serving as chairman of the Homeland Security Subcommittee with 
jurisdiction over cybersecurity, I have certainly paid very 
close attention to the cyber threats that are facing our 
government, our military and our citizens, and the 
vulnerabilities that have yet to be addressed.
    I was certainly pleased to include an amendment in the 
fiscal year 2011 Defense Authorization Act that would enhance 
our efforts to secure our Federal networks and coordinate U.S. 
resources. And I certainly strongly support the department's 
moves right now to coordinate its efforts under your new 
command, and I believe that they found a real expert to lead 
this new initiative. And, again, I look forward to supporting 
you in your work.
    General, I want to ask you a direct question. If we--the 
Nation were to endure a major cyber attack right now, could you 
defend the Nation against that attack? Do you have the 
authorities to defend the Nation against that attack? 
Obviously, we are talking about the whole of our--our cyber 
critical infrastructure.
    As I have said--I know--because the President in his major 
address on cybersecurity, the first major world leader to--to 
make a major address on cybersecurity, said that our--our cyber 
assets, our critical national asset--will defend and use all 
assets of national power to defend it.
    But my question is, again, to you. Could you defend the 
Nation right now against a major cyber attack? Do you have the 
authorities that you need?
    General Alexander. First, Congressman, thanks for your 
great support in all the cyber areas and all that you have done 
over the past years on this. It is been tremendous, and we 
appreciate it.
    To answer your question directly, it is not my mission to 
defend today the entire Nation. Our mission in Cyber Command is 
to defend the Defense Department networks. And as if we are 
tasked by either the Secretary or the President to defend those 
networks, then we would have to put in place the capabilities 
to do that. But today, we could not.
    Mr. Langevin. And what would you need to do that, General?
    General Alexander. I think this is what the White House, 
Congressman, is actually looking at, is how do you form the 
team to do the mission that you are--that you have put on the 
table? How do we develop the team between Department of 
Homeland Security, FBI [Federal Bureau of Investigations], 
Cyber Command, and others to work as a team to defend the 
Nation in cyberspace?
    And in that, what are the roles and responsibility of each 
member in that team? And then let us walk through in a war 
game--my words--how that would work? And ensure that everybody 
has the exact authorities and capability to do what needs to be 
done to protect the country.
    Those are the steps that we are going through. It is under 
the leadership of the White House right now. Howard Schmidt and 
his folks are leading that to look at this. We get to 
participate in that, to put forward our ideas on how the 
country could be protected, specifically the government, the 
government networks, and what I will call critical 
infrastructure.
    Mr. Langevin. Well, let me press you a little bit more. If 
America, in fact, experienced a serious high-profile attack 
today against our critical infrastructure, perhaps our power 
grid, banking sector, or transportation, what are the rules for 
self-defense in cyberspace? And can you walk us through how 
such an attack would occur? And how would the U.S. Government 
work to stop it and ensure the security of our citizens?
    General Alexander. That is a great question. Okay, to be 
very direct on it, if an attack were to go against the power 
grids right now, the defense of that would rely heavily on 
commercial industry to protect it. If commercial industry had 
the signatures and the--and the capabilities in place to weed 
out that attack, then they would be successful.
    The issue that you are really getting to is, what happens 
when an attacker comes in with an unknown capability? That 
unknown capability would have the ability to shut down either 
the banks or the power grid if it got through.
    So to defend against that, we need to come up with a more, 
in my terms, a more dynamic or active defense that puts into 
place those capabilities that we would need to defend in a 
crisis.
    That is what we are working right now in the department to 
do to ensure that that works and working, actually, closely 
with Department of Homeland Security and the White House to 
show how that could be done. And they are looking at that as a 
model to put in place and now trying to ensure that they have 
the authority to do that, looking at how that would all be 
created. And if they don't have, I think that is what they 
would bring forward to you.
    Mr. Langevin. Well, General, thank you. I know my time has 
run out, but these are the things that keep me up, at least. 
And I am very concerned about potential threats in the cyber 
realm facing our Nation. And I--I look forward to working with 
you on addressing these--these important challenges. Thank you.
    The Chairman. I thank the gentleman.
    Let me--let me ask this question before I call on Mr. 
Boswell. General, where are each of the four sub-commands 
physically located?
    General Alexander. Right now, three are at Fort Meade--or 
at least major portions of them are at Fort Meade. One, Air 
Force, is at San Antonio, Texas, collocated with San Antonio, 
Texas, and it will have a beachhead at Fort Meade. So I think 
they are all in that enterprise that allows us that capability 
to touch both the NSA portion and work together as an effective 
team.
    The Chairman. Thank you.
    Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. Just very short.
    Good to see you again, General. Appreciate your work very 
much. If you have done it, why, I will just check the notes, 
but I got here late, but could you tie on the DNI, how they fit 
into this--I know as NSA you report to DNI. Tie this together 
for us.
    General Alexander. All right. NSA has a direct report to 
the DNI for operational intelligence means. And we do that. The 
DNI oversees all the threat-related collection that goes on in 
cyberspace, as you would expect.
    General Clapper, Jim Clapper, the director of--now for DNI, 
absolutely in sync with where the department's going and has 
been a huge advocate and candidate for helping put this 
together, absolutely superb. I think that is going to continue 
to go well. I think we are building those right pieces 
together.
    They understand and I understand the responsibilities that 
I have under the Title 50, back to the Intel Committee, and 
under Title 10, back to this committee. And I think all of 
those understand it, too, and know that we are--we are doing 
those right.
    I think--I think, if I could, one of the things that this 
gets to, this question that you bring up that is so important 
for our country--note that we couldn't replicate the NSA 
capabilities. And so leveraging them is going to be hugely 
important.
    And now, ensuring that we leverage them properly, that we 
need the civil liberties and privacy--and that we are 
transparent, those are going to be the keys, and where we have 
got to come back to you and show you how we are doing that.
    Mr. Boswell. I appreciate that. I also--we all appreciate 
the investment we got in NSA, and we can't duplicate it, so 
that leveraging, I think, is extremely important. There is a 
lot of--a lot of need there, and it is--it is kind of the 
frontier right now, as we all know. So I wish you well and 
thank you for your dedication, and I appreciate those strong 
words you said about the in-depth you have got in the two 
staffs. We wish you well. And we will do our best to be 
helpful. Thank you.
    General Alexander. Thank you, sir.
    Mr. Boswell. I yield back.
    The Chairman. I thank the gentleman.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Speaker--I mean, Mr. Chairman, 
and thank you, General Alexander, for your appearance today.
    I wanted--communications, logistics and intelligence 
operations conducted by the Department of Defense are to some 
extent reliant upon the public Internet. Is that true?
    General Alexander. Absolutely, Congressman.
    Mr. Johnson. And could we fight a war effectively were the 
public Internet to fail or be compromised?
    General Alexander. Well, that would be very difficult. 
Those specific networks that we depend on were not protected, 
so I would put those in that category of critical 
infrastructure, myself.
    Mr. Johnson. Could we fight a war in the event the global 
information grid were substantially or wholly compromised?
    General Alexander. If it is compromised, I think we could--
we could fight a war. If it were destroyed, that is a different 
issue. And now we would--we would be back to many years ago, 
and we would have to look back, because much of our command and 
control, much of our intelligence depends on that network 
operating.
    Mr. Johnson. Do we have a specific contingency plan in the 
event that that happens?
    General Alexander. That is one of the missions that we are 
looking at, is how do we do that? And the I.T. [Information 
Technology] architecture that I described earlier, one of the 
things that we are looking at is, how do we get that agility 
and flexibility to operate in those degraded environments? It 
is something we have got to do.
    Mr. Johnson. Are you satisfied that the various agencies 
and interagency councils responsible for U.S. cybersecurity, 
some of which have overlapping jurisdictions or areas of focus, 
are arranged such that you can do your job efficiently and 
effectively?
    General Alexander. Well, I think with any new area, 
Congressman, you are going to have differences of opinion. I 
think that is a good thing. The team is coming together good. 
Now that we have Howard Schmidt on board as the White House 
coordinator, I think we are getting more folks and faster 
movement within the interagency.
    And it goes back to a couple of the earlier questions. We 
do have to resolve some of these. The White House is working 
that right now to say, whose mission is it to do which part of 
this? And do we have that all right? And do you have the 
capabilities and authorities to do that?
    Mr. Johnson. Yes, we have--we have seen where in our 
intelligence-gathering apparatus there has been silos, I guess, 
built and the information does not flow freely or as freely 
as--as we would like. And that certainly would be--not be a 
model that we would want to adopt when it comes to 
cybersecurity issues. Would you agree?
    General Alexander. I agree. I think it needs to be a team.
    Mr. Johnson. Are there any structural changes that you 
think may accommodate that aspiration?
    General Alexander. I believe in the future we are going to 
need to make structural changes, but I don't know what they 
would be right now. I believe that, as we look at how we are 
going to operate in cyberspace to protect this Nation and the 
areas that you want us to protect and the Nation wants us to 
protect, we then need to look at how that team is organized, 
how it operates, and the authorities upon which it operates.
    That is one of the things the government is working hard on 
right now. We are working our portion of it. I think what you 
would then want is for those teams to come together and put 
that all together, and that is where the White House--
specifically Howard Schmidt and his folks--need to come back, 
lay out those authorities, and come back to you with that.
    And in that, they may come up with recommendations, but I 
don't know any right now that I would make.
    Mr. Johnson. Much of the hardware used on U.S. defense and 
intelligence networks is manufactured abroad, some of it in 
China. Is that correct?
    General Alexander. Yes, much of computers are put together 
or--or built in other countries, and China is one of the big 
producers.
    Mr. Johnson. Are we confident that those hardware supplies 
are not compromised? And is there something that we can do with 
respect to securing the items during the manufacturing process?
    General Alexander. I think there are two parts to that. One 
is, as we manufacture or manufacture things to a specific 
standard and have the capability to test that standard, that 
would be one part. Same for software. And, two, understand that 
people will always try to manipulate your system, and we have 
to be looking out for that and have the capability to 
dynamically look to that within our networks.
    Mr. Johnson. Thank you, General. You and your associates 
have a big job to do, and we appreciate you for your 
professionalism and your--your strong will to win in 
cyberspace. Thank you.
    General Alexander. Thank you.
    The Chairman. I thank the gentleman.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much, Mr. Chairman.
    And thank you for being here. Last week, there was a 
briefing that the deputy commander of Cyber Command, he 
discussed an upcoming disaster response exercise that was being 
planned in the Department of Homeland Security and how he was 
working to make sure that Cyber Command was involved in the 
exercise. It was taking some effort to make sure that he was 
able to participate.
    While there have been questions on integration of the 
services, could you please tell me how Cyber Command is working 
with other government agencies, such as Department of Homeland 
Security?
    General Alexander. Right. We work with the Department of 
Homeland Security in a number of ways. If I could, first, we, 
NSA, has a team there, a cryptologic support group, that we 
depend on largely to help in this cyber area.
    Two, within the department, they--our Under Secretary of 
Defense for Policy has a responsibility to reach out to the 
Homeland Security, and we have a direct relationship to them. 
For the US-CERT, the computer emergency response teams that 
they have, for their operations and ensure that information is 
passed back and forth.
    So if you think about it--I am--I am giving you kind of a 
convoluted answer, because it actually goes on several levels. 
At the high level, what the departments are doing, Homeland 
Security and Defense, my opinion, the Secretary of Defense and 
the Secretary of Homeland Security have a vision for how they 
are going to do this and they are working towards that vision 
and trying to bring it.
    The staffs are working together, the department staff and 
that. We fall under that department staff and take their lead. 
And at the operational level, on the networks, the US-CERT 
worked with our Joint Operations Center and others to ensure 
that information is passed on the networks about threats and 
stuff, and that works pretty good.
    So at the--at the player level, that is going on, and we 
are building the others to get to issues like that cyber 
exercise coming up.
    Ms. Shea-Porter. Okay. So you feel that you are a full 
player on the field now, that everybody recognizes how 
essential your mission is, and that you are well integrated?
    General Alexander. I think there is always going to be--for 
the near term, we are going to have to do a lot of work to 
integrate, because there is issues that as--as you would 
expect, of who has got the responsibility for which piece? How 
do we work that? I think those issues are natural. We are 
working those out.
    I do--I would tell you that they know we are here, they are 
working with us. I just had a meeting earlier this week--and we 
had Rand Beers and Phil Reitinger there at the meeting, and we 
have daily VTCs [video teleconferences] with Homeland Security 
in this area.
    That doesn't mean that we are not going to have issues 
about how much do we play, for example, in that cyber exercise, 
Defense Department issues versus Homeland Security issues, and 
that is probably where you will see more friction. So how much 
of each do you play? How--how radical do you make the exercise? 
And----
    Ms. Shea-Porter. I would say that time is our enemy on 
this. As fast as we can move this integration, the better off 
and the safer we will be. So thank you for your efforts, and I 
yield back.
    The Chairman. With no further questions, General, we are 
very appreciative of your being with us today. We wish you 
well. And it appears you have some excellent colleagues to work 
with. And we look forward to your testimony in the future. We 
are, of course, here to be of assistance to make you all the 
more successful.
    With that, the hearing is adjourned. Thank you.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           September 23, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 23, 2010

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 23, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. There are a number of efforts underway, in Congress 
and internationally, to better define legal norms and behaviors in 
cyberspace. DOD has traditionally been on the forward edge of thinking 
about these issues, so I would be interested in hearing from you about 
what role do you see for your command in attempting to shape the legal 
environment related to cyber operations? What are some of the pitfalls 
you see in proposals you are aware of? What components should we try to 
pursue more vigorously?
    General Alexander. United States Cyber Command (USCYBERCOM) plans 
and conducts operations fully consistent with all laws and regulations. 
Our foremost responsibility in this regard is to demonstrate our 
support and compliance with the law. As we conduct planning, we 
undertake to determine the limitations and restrictions we face, as 
well as any concerns, and continuously keep the policymakers and 
decisionmakers within the Department informed. We can best contribute 
to effective decisionmaking by providing quality, detailed and expert 
knowledge about operational considerations in and through cyberspace. 
We are aware of many low-level discussions across many organizations. 
At this juncture, we are principally supporting internal discussions 
sponsored by Under Secretary of Defense (Policy) (USD (P)) and the 
Joint Staff. In our view, the most important perspective we can bring 
to the table is a perspective informed through deep technical 
understanding of the domain and based in Combatant Command (COCOM) 
deliberate and adaptive planning processes. The Department, led by the 
Under Secretary of Defense for Policy, is conducting a review of DOD 
policies relating to cyberspace.
    Mr. Skelton. What service and joint training and educational 
institutions do you use now, or will you use in the future, for 
developing your cadre of cyber warriors?
    General Alexander. Currently, the number of fully trained, 
credentialed, and certified cyber personnel, military and civilian, is 
limited. Training and skills development and sustainment demands 
extensive time and effort. Our most significant challenge is to ensure 
that on balance, the Nation benefits from all potential talent 
available. USCYBERCOM currently uses several different venues for cyber 
training and education, to include:

          <bullet>  Service-specific initial occupational training and 
        ongoing professional military education
          <bullet>  Computer Network Defense Course--Fort McCoy, 
        Wisconsin
          <bullet>  Information Assurance Training Center, U.S. Army 
        Signal Center--Fort Gordon, Georgia
          <bullet>  Basic Computer Network Operations Planners Course 
        (BCNOPC)--1st IO Command
          <bullet>  Signal Corps Cyber Security Training--Fort Stewart, 
        Georgia
          <bullet>  Center for Computer Network Operations, Cyber 
        Security & Information Assurance within NSA Associate 
        Directorate for Education and Training (ADET) College of 
        Cryptology
          <bullet>  Eastern Michigan University--Michigan
          <bullet>  University of Maryland Baltimore County (UMBC)--
        Maryland
          <bullet>  Northrop Grumman Cyber Warrior course--Maryland
          <bullet>  DOD Cyber Crime Training Academy--Linthicum, 
        Maryland
          <bullet>  Joint Network Attack Course (JNAC)--Center for 
        Information Dominance, Corey Station, Florida
          <bullet>  Joint Cyber Analysis Course (JCAC)--Center for 
        Information Dominance, Corey Station, Florida

    Each of these courses provides a current foundation in requisite 
Information Assurance (IA) and Computer Network Defense (CND) skills. 
In addition to these Joint Service schools, agency and contract 
efforts, there remain extensive opportunities with significant 
potential: over 100 Community Colleges, Colleges and Universities which 
are National Security Agency (NSA)/Department of Homeland Security 
(DHS) Centers for Academic Excellence; Air Force Institute of 
Technology (AFIT) Center for Cyberspace Research; the Naval Post 
Graduate School (NPS); the Army's Advanced Civil Schooling (ACS) 
program; the National Defense University (NDU) system; the National 
Defense Intelligence College (NDIC); and the Advanced Technical 
Intelligence Center (ATIC). The services are restructuring or 
developing new technical training courses and job skills that will 
potentially result in new occupational specialty codes throughout the 
services that are trained at the basic level to enter the cyber 
community.
    Mr. Skelton. Do you have plans to carry out any significant joint, 
interagency or international exercises that would test out DOD's 
ability to respond to large-scale attacks against DOD computer 
networks, similar to the ELIGIBLE RECEIVER 97 exercise?
    General Alexander. Exercises are a well-recognized and traditional 
DOD mechanism to develop and certify operational constructs. USCYBERCOM 
has participated in one interagency and two COCOM exercises since May 
2010. It is our intention and task to participate in a robust exercise 
regime to support technical and operational concept development and 
validation; and to use these exercises as a means to develop our 
tactics, techniques, and procedures and identify gaps in policy and 
law.
    Mr. Skelton. What capabilities do you have to conduct active 
network operations, such as network hunting, penetration testing and 
other forms of red teaming? Do you have unmet needs in this area (in 
terms of people or tools)?
    General Alexander. USCYBERCOM has limited NSA and Service 
capabilities to leverage in hunting, penetration testing, and red 
teaming. We use Green Teams to respond to cyber incidents; Blue Teams 
that provide in-depth review and resolution of cyber events and Red 
Teams that emulate adversary procedures against DOD hosts to train 
defenders and identify vulnerabilities for mitigation. We estimate that 
current resources (NSA's Advanced Network Operations (ANO) and Service 
Red Teams) can only cover a fraction of the DOD networks. Effective 
hunting is absolutely essential to discovery, characterization, and 
mitigation of threat activity on our networks. USCYBERCOM is working 
with NSA and the Services to leverage the projected resource savings, 
both in terms of personnel and money, we anticipate from planned 
information technology initiatives that will enable us to recruit, 
train, and field more hunting teams and develop and field automated 
hunting and adversary data analysis capabilities to address this key 
shortfall.
    Mr. Skelton. In your testimony, you mentioned something called 
expeditionary cyber support elements. Can you explain in more detail 
what these are, and what role you see them playing in future CYBERCOM 
operations?
    General Alexander. COCOMs and deployed forces require the ability 
to leverage USCYBERCOM expertise and capabilities in planning and 
conducting full-spectrum cyber operations in support of their assigned 
missions. To directly support both Combatant Commanders and Joint Task 
Force Commanders, USCYBERCOM has created two complementary support 
elements--the Cyber Support Element (CSE) and the Expeditionary Cyber 
Support Element (ExCSE). Both are assigned to USCYBERCOM, but the CSE 
is with duty at the Geographic COCOM headquarters, and the ExCSE is 
deployed on orders to a Joint Task Force Commander located in an Area 
of Hostilities.
    The CSE supports the Combatant Commanders at their headquarters 
through liaison, planning, and operations support primarily at the 
Directorate of Operations, or J3 level. However, the CSE is empowered 
to develop relationships and capabilities across the Combatant Command. 
The CSEs have played innovative and complementary roles within the 
COCOM Directorates of Intelligence (J2) and Directorates of Plans and 
Policy (J5). To enable their effectiveness, the CSE has full reach-back 
support to USCYBERCOM headquarters and the NSA Enterprise.
    An ExCSE consists of a team of experts deployed to an active Area 
of Hostilities to enable, implement, integrate, and execute cyber 
operations. Currently, USCYBERCOM has two ExCSEs teams deployed--one in 
Iraq and one in Afghanistan. The teams consist of five personnel: a 
team chief (lead planner), a cyber attack planner, a cyber defense 
planner, and two analysts (cyber and intelligence). USCYBERCOM embeds 
these teams within the supported Joint Task Force headquarters 
(typically J3 Directorate--Operations) to enable the delivery of cyber 
effects in support of the commander's priorities.
    The size, composition, and role of an ExCSE team is scalable 
depending on mission requirements. For example, in Iraq and Afghanistan 
the ExCSEs provide cyber expertise directly to the deployed 
headquarters' planning effort while coordinating the delivery of cyber 
effects through USCYBERCOM headquarters and interagency partners. In 
future conflicts involving full-scale operations against sophisticated 
cyber adversaries, the ExCSEs will scale to meet mission requirements. 
The ExCSE teams will continue to coordinate for global effects through 
USCYBERCOM but will also play a key role in coordinating planning, 
direction, and execution of cyber operations through an in-theater 
Joint Cyber Operations Task Force (JCOTF).
    Mr. Skelton. The Committee appreciates the complexity of 
coordinating cyber operations in various Service, Agency, interagency, 
international and non-governmental organizations geographically 
dispersed across the world. To deal with that challenge, what tools, 
technologies, processes or procedures do you have in place, or are 
planning, to facilitate collaboration across the full range of cyber 
operations?
    General Alexander. Success in the cyber domain does demand 
coordination amongst all entities listed in the committee's question, 
and in fact requires close interaction and cooperation with academia 
and industry. USCYBERCOM has ongoing interaction/collaboration with all 
of these entities and leverages NSA's existing relationships. 
Additionally, to continue building essential collaboration, USCYBERCOM 
is exchanging co-located liaisons and increasing leadership 
participation in interagency groups (existing and planned); information 
and data exchanges to build shared situational awareness; cooperative 
exercises and planning efforts; periodic synchronization conferences; 
and development of an Integrated Cyber Center.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. The cyber domain has become a formidable, dangerous 
``fourth'' domain in which warfare is not simply expected to occur but 
indeed is occurring. Numerous sources tell us, including the DOD, that 
the threat is tremendous to U.S. intellectual, utility, and financial 
infrastructure. We see reports every day where other nations, 
organization and, at times, individuals ``attack'' some aspect of 
American society whether it be governmental organizations, civilian 
organizations or even individual citizens. It would seem most of the 
work the services are involved in appears to only provide defense of 
the Department's IT network and specifically for their own service. 
Although this is important, should the Department be involved in the 
defense of the Nation's networks as well? I certainly understand there 
will be legal challenges that will need to be addressed, but are we 
exploring the concept of national cyber defense and not simply DOD 
defense.
    General Alexander. As exemplified by the 27 September 2010 DOD/DHS 
Memorandum of Agreement Regarding Cyber Security, the DOD is actively 
working with U.S. Government (USG) Departments and organizations (e.g. 
U.S. Computer Emergency Response Team, Department of State, Department 
of Energy, Department of Justice, and the Director of National 
Intelligence) to collaborate and synchronize shared situational 
awareness, actionable intelligence, and operations to enhance 
cybersecurity for the Nation. Under authorities granted to USSTRATCOM, 
USCYBERCOM exercises its Title 10 missions, roles and functions in 
accordance with U.S. laws, policies, and regulations. The authority 
delegated to USCYBERCOM extends only to operate, defend, and when 
directed, conduct full-spectrum operations for DOD or ``.mil'' 
networks.
    Mr. Miller. I'm concerned that as each service builds its own cyber 
entities, there could be a divergence in interoperability and a lack of 
interservice cooperation as each service grows in its own unique 
direction thereby creating a pre-Special Operations Command Special 
Operations type of situation. What are we doing to ensure this is not 
happening and ensuring there is no duplication of effort which could 
lead to confusion and ``cyber fratricide'' leading to mission 
degradation? Are we achieving the basic military principles of economy 
of force and unity of effort?
    General Alexander. As a sub-unified command under U.S. Strategic 
Command, U.S. Cyber Command is organized as a joint warfighting command 
supported by Service cyber components. The organizational structure of 
USCYBERCOM and its Service cyber components afford a joint unity of 
effort and economy of force for the planning, coordinating, 
integrating, synchronizing, and conduct of those activities in the 
operation and defense of specified Department of Defense information 
networks. USCYBERCOM and USSTRATCOM have established processes for DOD-
wide cyberspace operations capability development and acquisition to 
ensure cooperation and interoperability for cyber offensive, defensive, 
and network operations in its joint force.
    Mr. Miller. In terms of domains of conflict, there is air, space, 
land and sea. Cyber would seem to be a new domain. Would it be wise to 
consider a service that would be solely dedicated to training and 
equipping personnel for a joint commander just as the services provide 
forces for their respective domains to the combatant commander? If not, 
why not?
    General Alexander. Among the principal challenges facing the DOD in 
cyberspace is the ability to generate capacity--recruiting, training, 
certifying, and retaining a sufficient number of cyber operators. The 
services--Army, Marines, Navy, and Air Force have structure and 
organizational identity to recruit and identify talent. The current 
training regime is built to a Joint standard. The USCYBERCOM stand-up 
was a logical step in bringing similar organizational structure and 
alignment to this domain. USCYBERCOM's goal is for Joint Force 
Commanders to have the ability to plan for effects in cyberspace as an 
integral--not separate--part of their mission planning, execution, and 
assessment cycles.
    Mr. Miller. Cyber Command is intended to be a Joint Sub-unified 
Command reporting to STRATCOM. I would assume that each service is 
``training and equipping'' personnel to provide forces to the Joint 
Cyber Command. Based on the well-documented size and scope of the cyber 
threat, do you all believe that Cyber Command should be its own 
Combatant Command? If the threat truly is a dangerous as we say, and I 
certainly believe that it is, why wouldn't we stand up a command that 
has sole responsibility to execute operations within its AOR such as 
any other COCOM?
    General Alexander. USCYBERCOM is a sub-unified command organized 
under USSTRATCOM. There were several studies--from outside the 
Department, to across the Department, and within USSTRATCOM that 
considered a wide range of options for ``best fit'' organizational 
alignment. These studies were undertaken with facts and informed 
forecasts at that time. We believe a sub-unified command was the best 
first step.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. In the opening portion of your verbal testimony, you 
identified developing, training, and educating cyber professionals as 
CYBERCOMMAND's top challenges. Further, training, organizing, and 
equipping the new cadre of cyber professionals has been a common 
concern among policymakers addressing cyber-capabilities for our 
National interests. Our U.S. Deputy Secretary of Defense (DSD), William 
J. Lynn III, identified the ``strengthening of human capital in trained 
cyber-security professionals'' as a significant concern. In his Foreign 
Affairs article, he asserted that the U.S. needs to graduate ``three 
times as many security professionals annually as a few years ago.'' How 
do you envision the premier cyber program at Air Force Institute of 
Technology being optimized to educate and train professionals at/for 
CYBERCOMMAND?
    General Alexander. The Air Force Institute of Technology (AFIT) 
Center for Cyberspace Research offers a wide range of Certificate, 
Undergraduate, Master's, and PhD level programs for the cyber 
community. These programs, along with similar programs through the 
Naval Postgraduate School (NPS) and the Army's Advanced Civil Schooling 
(ACS) program, provide cyber professionals with the educational 
foundation and professional development required to be successful as 
they transition to intermediate and higher levels of responsibility and 
leadership. AFIT supplements the USCYBERCOM requirements for a cadre of 
trained personnel in a standardized cyber curriculum for senior 
enlisted, mid-level Captains and Department of the Air Force civilians. 
We intend to work closely with AFIT and NPS leadership to ensure their 
programs reflect the lessons we learn from operating in cyberspace.
    Mr. Turner. The Dayton area is home to the Advanced Technical 
Intelligence Center (ATIC), a classified facility focused on providing 
the necessary technical education for intelligence professionals. How 
do you see facilities such as ATIC supplementing the training need for 
security professionals?
    General Alexander. The Advanced Technical Intelligence Center 
(ATIC) offers a wide range of classified and unclassified, entry level/
familiarization/overview courses in the intelligence or related fields. 
These programs could help fulfill intelligence community knowledge gaps 
that military educational institutions are currently unable to provide. 
These courses provide an effective means for gaining essential basic 
knowledge requirements or specific specialized training in low-density 
skill sets. USCYBERCOM will continue to collaborate with ATIC as well 
as other elite learning institutions and activities through the 
National Defense University system to integrate, when applicable, 
current training and education requirements. USCYBERCOM will continue 
to provide guidance on future requirements and standards. ATIC's 
distance learning capabilities coupled with abilities to rapidly 
develop training on emerging technologies could be leveraged to support 
cyber-related training requirements across the DOD, until the services 
can generate the capacity and throughput required to meet mission 
demands.
    Mr. Turner. As quoted by Deputy Secretary of Defense William Lynn 
in the Foreign Affairs article, ``Defending a New Domain: The 
Pentagon's Cyberstrategy,'' the report, ``NATO 2020: Assured Security; 
Dynamic Engagement,'' a NATO [North Atlantic Treaty Organization]-
commissioned study chaired by former U.S. Secretary of State Madeleine 
Albright, rightly identified the need for the alliance's new 
``strategic concept'' to further incorporate cyber defense. The U.S. 
government must ensure that NATO moves more resources to cyber defense 
so the member states can defend networks integral to the alliance's 
operations. As a NATO parliamentarian, I am interested in transatlantic 
security and ensuring we continue to build coalition capacity around 
the world. It is notable that DSD Lynn emphasized the five principles 
of Department's strategy in cyberspace in Brussels, while also stating 
that NATO must build a ``cyber shield'' to protect the transatlantic 
alliance from any Internet threats to its military and economic 
infrastructures. A) What initiatives are in place to develop NATO 
partners in the cyber arena? B) When addressing cybersecurity issues 
involving NATO and other international allies, what are your greatest 
challenges? C) How can international partnerships be cultivated and 
improved upon in the cyber domain? D) What mechanisms does USCYBERCOM 
have at its disposal to share intelligence with our allies?
    General Alexander. DOD has an agreement with NATO for conducting 
Information Assurance (IA) and Computer Network Defense (CND) 
information exchanges and related activities. EUCOM's Network Warfare 
Center is the executive agent responsible for overseeing the day-to-day 
management of the implementation activities of the agreement and 
USCYBERCOM is the DOD agent responsible for providing and receiving IA/
CND information with the Technical Centre, NATO Computer Incident 
Response Center.
    The greatest challenges in addressing cybersecurity issues are the 
downgrading, releasing, or disclosing of classified information, which 
supports cybersecurity strategies. Enduring methods to maximize shared 
situational awareness while reducing risk to U.S. networks remain a 
significant challenge. Additionally, USCYBERCOM must have a means to 
rapidly and securely share situational awareness information and 
mitigation strategies.
    Strategic partnerships should mutually benefit both USCYBERCOM and 
its foreign counterparts. At minimum, informal discussions and 
engagement would increase our shared understanding about activities, 
capabilities, and areas for cooperative development, improve cyber 
defense activities and reduce misinterpretation and potential 
escalation of malicious cyber actions. Formal partnerships may also 
increase shared early warning, collective self-defense, and integrated 
operational planning. Further, our efforts are to support COCOM theater 
cooperation plans.
    USCYBERCOM is not an intelligence agency. USCYBERCOM leverages 
existing DOD and intelligence community procedures and protocols. The 
International CND Coordination Working Group was established and 
subsequently developed standard operating procedures to facilitate the 
exchange of information via weekly teleconferences between the 
respective military CND watch centers, and methods to submit requests 
for information regarding noted intrusion activities.
    Mr. Turner. For the purposes of a hypothetical scenario, assume 
Fleet Cyber Command obtains information which they believe poses a 
credible threat to U.S. Naval operations or forces. Further assume that 
Fleet Cyber Command believes this information could compromise Army or 
ARFORCYBER operations or forces if such information were shared beyond 
Fleet Cyber Command officials. How can CYBERCOM ensure that effective 
communication exists among organizations, and avoid the pitfalls/
difficulties in integration faced by other entities within the national 
and homeland security infrastructure?
    General Alexander. Commander USCYBERCOM will lead cyberspace 
operations as a joint endeavor with all cyber forces, regardless of 
service component, fully integrated into a joint fighting force. 
USCYBERCOM will enable and task through a joint operations center the 
synchronization and coordination of DOD cyber operations. USCYBERCOM's 
Joint Operations Center (JOC) is linked to service network operations 
centers ensuring threat information is passed in a timely manner.
    Mr. Turner. Within the last decade, some might argue that the 
organizational structures of the separate agencies (FBI, CIA, etc.) 
were not effectively organized to prevent a national disaster. Of which 
``lessons observed'' from our intelligence community should CYBERCOM be 
mindful, and address in its culture and organizational structure, in 
order to be proactive and effectively prevent future asymmetric 
attacks? How can our national cyber infrastructure avoid organizational 
bureaucratic inefficiencies and stovepiping? How does CYBERCOM 
culturally encourage collaboration, communication and information-
sharing? With which entities throughout the DOD and government does 
CYBERCOM most frequently cooperate on intelligence matters?
    General Alexander. In recent years (2007-2008), the cyber events in 
Latvia, Lithuania, Estonia, and Georgia, have informed all domestic 
U.S. agencies and organizations of the inherent vulnerabilities within 
the cyber domain. USCYBERCOM continuously educates, trains, exercises, 
operates, and assesses operational readiness to conduct full-spectrum 
operations. In partnership with other U.S. Government (USG) agencies, 
COCOMs, and DOD organizations, USCYBERCOM leverages its relationship 
with the NSA to develop, assess, and monitor strategic indications and 
warning through the capabilities and accesses developed by the 
intelligence community (IC) and interagency.
    As exemplified by the 27 September 2010 DOD/DHS Memorandum of 
Agreement Regarding Cybersecurity, the DOD is actively working with the 
other USG Departments to collaborate and synchronize shared situational 
awareness, actionable intelligence, and operations to enhance 
cybersecurity for the Nation.
    To promote shared situational awareness and information sharing, 
USCYBERCOM actively engages with IC and interagency organizations.
    The USCYBERCOM mission requires constant interaction with IC and 
interagency partners. One vehicle for this cooperation is the Joint 
Interagency Task Force-Cyber (JIATF-C). The JIATF-C includes all 
members of the IC, all COCOMS (and their respective Joint Intelligence 
Operations Center (JIOC) elements), and multiple members of the USG 
interagency community (e.g., FBI, DOJ, Treasury, DHS, DOS, etc.). Many 
of these organizations have personnel integrated into USCYBERCOM to 
perform vital coordination and liaison functions dramatically enhancing 
the speed at which USCYBERCOM can access and share intelligence in 
support of USCYBERCOM's missions and goals.
    Mr. Turner. For the purposes of a hypothetical scenario, assume the 
24th Air Force is headquartered and/or operates primarily out of San 
Antonio, TX, and that Fleet Cyber Command is headquartered and/or 
operates primarily out of Annapolis, MD. Further assume that a cyber 
attack has crippled the 24th Air Force's electronic communications 
capabilities. Without the ability to communicate effectively in the 
event of a cyber attack, USCYBERCOM and any one of its members runs the 
risk of being, in essence, useless. If a nation is under attack--be it 
cyber or otherwise--communication and rapid response are vital. A) How 
can USCYBERCOM ensure that the means of communication upon which it 
relies will not itself be compromised? B) How can USCYBERCOM maintain 
open lines of communication among its member when telephone, e-mail, 
fax, etc. are compromised?
    General Alexander. USCYBERCOM has four service components, 
including both 24th Air Force and Fleet Cyber Command. The dispersed 
nature of the headquarters components and global presence of cyber 
forces serves to mitigate this scenario. The key to sustainable mission 
assurance is developing and sharing a combined situational awareness. 
Effectively, cyber forces at all echelons, will access this common 
operational picture and take appropriate actions toward an effective 
defense posture. More broadly, as a matter of prudent military 
planning, USCYBERCOM and its components are developing continuity of 
operations plans. These plans delineate and prioritize critical mission 
functions in the event of short or long-term disruptions and designated 
locations and required functionality for rapid reconstitution of 
command capabilities. As our networks continue to converge, the 
distinction between telephone, e-mail, and facsimile will be far less 
discernable.
    Mr. Turner. Jurisdiction is of tremendous significance in any 
discussion of cyberspace. Cyberspace is the most unique medium through 
which an individual or group may influence or attack. The ability to 
conceal, obscure, or otherwise mask one's identity and geographic 
locale is perhaps more prevalent in cyberspace than in any medium. What 
challenges and processes do you envision in adjudicating or determining 
future jurisdictional issues, which will undoubtedly arise?
    General Alexander. While jurisdiction is more of an immediate 
concern in civilian law enforcement, it is still an issue for military 
cyberspace operators as well. Terrorists can now ``forum shop'' and 
choose beneficial jurisdictions from where they can launch their 
attacks. Cyberspace is a domain in which even one computer operator 
conceivably possesses a global strike capability regardless of 
location. It used to be that terrorists had to physically locate 
themselves in their target area, but that is no longer the case. The 
uniqueness of the cyberspace domain affords terrorists, nation-states, 
or international criminals the ability to strike from or through 
favorable jurisdictions, complicating efforts to identify, investigate, 
and apprehend a perpetrator. Cyberspace affords our adversaries the 
ability to mask the identity and source of an attack, making 
attribution and defense a greater challenge.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
